No.
IN THE SUPREME COURT OF THE UNITED STATES

DEONDRE ARTHUR STATEN, Petitioner,
vs.
RONALD DAVIS, Warden

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
CAPITAL CASE

The Petitioner, by his undersigned counsel, asks leave to file the attached petition
for writ of certiorari without prepayment of costs and to proceed in forma pauperis.
Since 2001, the Petitioner has been represented by Jerry L. Newton and Norman D.
James under appointment by the United States District Court for the Central District of
California pursuant to 21 U.S.C. § 848(q)(4)(B) and the Criminal Justice Act. This motion
is brought pursuant to Rule 39.1 of the Rules of the Supreme Court of the United States.
I declare under penalty of perjury that the foregoing is true and correct under the
laws of the United States of America.
Dated: October 27, 2020

s/ Jerry L. Newton
JERRY L. NEWTON*
Counsel for Petitioner
*Counsel of Record

No.

IN THE SUPREME COURT OF THE UNITED STATES

DEONDRE ARTHUR STATEN, Petitioner
vs.
RONALD DAVIS, WARDEN, Respondent

______________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE NINTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI
CAPITAL CASE

JERRY L. NEWTON*
9341 Holt Road
Carmel, California 93923
Telephone: 831-626-2797
Email: jlnewt@sbcglobal.net
Attorney for Petitioner
DEONDRE ARTHUR STATEN
*Counsel of Record

NORMAN D. JAMES
108 Ironwood Court
Hamilton, Montana 59840
Telephone: 406-961-1498
Email: : ndjlaw@aol.com
Attorney for Petitioner
DEONDRE ARTHUR STATEN

CAPITAL CASE – NO EXECUTION DATE SET

QUESTIONS PRESENTED
1.

Under 28 U.S.C. §2254(d)(2) and this Court’s decision in Harrington v.

Richter, 562 U.S. 86 (2011), does a federal court’s deference to a state court’s summary
disposition of a habeas corpus claim include deference to the state court’s established
process and procedures for determining whether, on the record before it, a prima facie
case has been made out?
2.

Under Richter v. Harrington, 562 U.S. 86 (2011), a state court’s

determination that a claim lacks merit precludes federal habeas relief under 28 U.S.C.
§ 2254(d) so long as fairminded jurists could disagree on the correctness of the state
court’s decision. Does that same deference preclude federal habeas relief under 28
U.S.C.§ 2254(d) when a three judge panel finds under Stickland v. Washington, 466
U.S. 668 (1984) that the petitioner was denied effective assistance of counsel during the
guilt phase of the trial, but two of the three judges have a disagreement with whether or
not the petitioner was prejudiced because, in theory, some fairminded jurist might
disagree with them?

LIST OF PARTIES
All parties appear in the caption of the case on the cover page. Petitioner is not a
corporation.
RELATED CASES
There are no related cases pending in this Court.

TABLE OF CONTENTS
Page
I.

ORDERS AND OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . .

1

II.

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

III.

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

4

A.

The PCLA Contract . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5

B.

Ineffective Assistance Of Counsel During The
Guilt Phase . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

7

1.

The Staten Family . . . . . . . . . . . . . . . . . . . . . . . . . .

7

2.

The Parents’ Vacation . . . . . . . . . . . . . . . . . . . . . .

8

3.

Evidence Adduced During The State Habeas
Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

13

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . .

14

A.

The PCLA Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15

1.

PCLA Claims History . . . . . . . . . . . . . . . . . . . . . . .

15

2.

California Law Governing Appointment
Of Indigent Counsel . . . . . . . . . . . . . . . . . . . . . . . .

17

California Process And Procedures In
Habeas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

20

4.

Proceedings In The District Court . . . . . . . . . . . .

24

5.

Appeal In The Ninth Circuit Court Of Appeals . .

26

6.

A Bridge Too Far . . . . . . . . . . . . . . . . . . . . . . . . . .

29

IV.

V.

3.

-i-

B.

VI.

Ineffective Assistance Of Counsel Claim . . . . . . . . . . . . .
1.
Deficient Performance . . . . . . . . . . . . . . . . . . . . .

31
31

2.

Prejudice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

32

Conclusion . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . .

40

Appendices, Volumes 1 and 2 – Table of Contents
Volume 1
1.

People v. Staten, 24 Cal.4th 434 (2000) . . . . . . . . . . . . . . . . . . . .

1-16

2.

Staten v. California, 122 S.Ct. 109 (2001) . . . . . . . . . . . . . . . . .

17

3.

In re Staten (case no. S107302) . . . . . . . . . . . . . . . . . . . . . . . . . .

18-19

4.

In re Staten (case no. S121789) . . . . . . . . . . . . . . . . . . . . . . . . . .

20-21

5.

In re Staten (case no. S141678) . . . . . . . . . . . . . . . . . . . . . . . . . .

22-23

6.

Memorandum and Order Granting in Part and Denying
in Part Respondent’s Motion to Dismiss Petitioner’s
Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

24-137

Memorandum and Order Granting Summary Judgmentj
to Respondent on Claim 11 and Denying First Amended
Petition for Writ of Habeas Corpus . . . . . . . . . . . . . . . . . . . . . . .

138-162

Staten v. Davis, 962 F.3d 487 (9th Cir. 2020) . . . . . . . . . . . . . . .

163-177

7.

8.

Volume 2
9.

10.

Order Denying Petition for Rehearing and Rehearing
En Banc . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

178

Executive Summary, Pomona Contract Lawyers
Association, dated September 18, 1990 . . . . . . . . . . . . . . . . . . .

179

ii

11.

Letter dated September 18, 1990, from Richard B. Dixon,
Chief Administrative Officer, to the Los Angeles County
Board of Supervisors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

180-181

Contract between East District of the Los Angeles Superior
Court and the Los Angeles County Board of Supervisors
creating the Pomona Contract Lawyers Association . . . . . . .

182-199

Los Angeles County Superior Court Minute Order dated
April 9, 1991, appointing John Tyre as counsel for Staten . . .

200

Contract between East District of the Los Angeles Superior
Court and Los Angeles County Board of Supervisors
extending Pomona Contract Lawyers Association for
Additional Year . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

201-203

Contract between East District of the Los Angeles Superior
Court and Los Angeles County Board of Supervisors
extending Pomona Contract Lawyers Association for
Second Additional Year . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

204-206

Petition for Writ of Habeas Corpus to California Supreme
Court, case no. S141678 (Federal Exhaustion Petition) . . . .

207-288

Informal Response to Petition for Writ of Habeas Corpus,
case no. S141678 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

289-319

18.

Declaration of Dr. Armando Morales, November 30, 2001. . .

320-335

19.

Declaration of Robert Osegara, November 18, 2001 . . . . . . .

336-337

20.

Declaration of Brian Ellis, November 18, 2001 . . . . . . . . . . . .

338-339

21.

Declaration of Pat M. Osegara, October, 2001 . . . . . . . . . . . .

340-341

22.

Declaration of Quincy Murphy, October 15, 2001. . . . . . . . . .

342-343

23.

Declaration of Keith Taylor, November 18, 2001 . . . . . . . . . .

344-345

12.

13.

14.

15.

16.

17.

iii

TABLE OF AUTHORITIES
Page(s)
Cases
Alexander v. Superior Court
22 Cal.App.4th 901 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

Arnelle v. City and County of San Francisco
141 Cal.App.3d 693 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

18

Brumfield v. Cain
576 U.S. 305, 135 S.Ct. 2269, 192 L.Ed.2d 356 (2015) . . . . . . . . . .

30

Cullen v. Pinholster
563 U.S. 170, 131 S.Ct. 1388, 179 L.Ed.2d 557 (2011) . . . . . . . . . .

29

Durdines v. Superior Court
76 Cal.App.4th 247 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

21, 23

Harrington v. Richter
562 U.S. 86, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011) . . . . . . . . . . . . .

passim

In re Clark
5 Cal.4th 750 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

In re Cook
7 Cal.5th 439 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

20

In re Harris
5 Cal.4th 813 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

In re Lawler
23 Cal.3d 190 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

In re Steele
32 Cal.4th 682 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

21

Jarra v. Municipal Court
21 Cal.3d 181 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

18

iv

Maas v. Superior Court
1 Cal.5th 962 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

Miller-El v. Cockrell
537 U.S. 322, 123 S.Ct. 1029, 154 L.Ed.2d 931 (2003) . . . . . . . . . .

31

People v. Cole
33 Cal.4th 1158 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

People v. Duvall
9 Cal.4th 464 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

People v. Gonzalez
51 Cal.3d 1179 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

21

People v. Ortiz
51 Cal.3d 975 (1990). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

People v. Romero
8 Cal.4th 728 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22, 23, 24

People v. Staten
24 Cal.4th 434 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

Phillips v. Seely
43 Cal.App.3d 104 (1974). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

18

Richter v. Hickman
578 F.3d 944 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

33

Staten v. Davis
962 F.3d 487 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 6, 27, 31, 39

Strickland v. Washington
466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984) . . . . . . . . . . .

31

Woods v. Visciotti
537 U.S. 19, 123 S.Ct. 357, 154 L.Ed.2d 279 (2002) . . . . . . . . . . . .

29

Woods v. Donald
575 U.S. 312, 135 S.Ct. 1372, 191 L.Ed.2d 464 (2015) . . . . . . . . . .

29

v

Yar borough v. Alvardo
541 U.S. 652, 124 S.Ct. 2140, 158 L.Ed.2d 938 (2004) . . . . . . . . .

34

Statutes
California Penal Code §987(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15

California Penal Coe §987.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17, 18

California Government Code §31000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

28

Title 28 U.S.C. § 2254(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

passim

Other
California Rules of Court, Rule 4.551 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

Seligman, Harrington’s Wake: Unanswered Questions on
AEDPA’s Application To Summary Dispositions,
64 Stan. L. Review 469 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

31

vi

No. ____________

IN THE SUPREME COURT OF THE UNITED STATES
___________________________________
DEONDRE ARTHUR STATEN, Petitioner
vs.
RONALD DAVIS, WARDEN, Respondent
____________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
NINTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Petitioner Deondre Staten (hereinafter “Staten”) prays for a writ of certiorari to
review the decision of the United States Court of Appeals for the Ninth Circuit in this
case.
I.
ORDERS AND OPINIONS BELOW
The decision of the California Supreme Court on direct appeal was issued on
November 9, 2000 (docket no. S025122) and is reported at People v. Staten, 24 Cal.4th
1

434, cert. denied sub nom. Staten v. California, 534 U.S. 846 (2001) (1 App. 1-17).1 The
California Supreme Court summarily denied Staten’s state habeas petition on September
10, 2003 (docket no. S107302) and denied two subsequent exhaustion petitions filed by
federal habeas counsel on July 13, 2005 (docket no. S121789) and on December 20, 2006
(docket no. S141678) (1 App. 18-23). The United States District Court for the Central
District of California denied all claims in the federal habeas petition on March 31, 2014,
except for a portion of Claim 7 (ineffective assistance of counsel at the guilt phase) and
all of Claim 11 (unconstitutionality of defense counsel appointment contract) (docket no.
2:01-cv-09178-MWF) (1 App. 24-137). The United States District Court for the Central
District of California denied the balance of Claim 7 and all of Claim 11 on October 2, 2017
(docket no. 2:01-cv-09178-MWF) (1 App. 138-162). On June 18, 2020, the Ninth Circuit
Court of Appeals (docket no. 17-99008) affirmed the judgment of the district court
dismissing Claims 7 and 11. Staten v. Davis, Warden, 962 F.3d 487 (9th Cir 2020) (2
App. 163-177). On August 5, 2020, the Ninth Circuit denied Staten’s petition for
rehearing and rehearing en banc (docket no. 17-99008) (2 App. 178).
II.
JURISDICTION
The Ninth Circuit judgment was entered on June 18, 2020. A timely petition for
rehearing and rehearing en banc was denied on August 5, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. §1254(1).

1

“App.” refers to Staten’s two volume Appendix filed concurrently with this Petition, preceded by
volume number and followed by page reference.

2

III.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment
“In all criminal prosecutions, the accused shall enjoy the right . . . to have the
Assistance of Counsel for his defense.”
Fourteenth Amendment Due Process Clauses
“No state . . . shall . . . deprive any person of life, liberty, or property, without due
process of law.”
28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in custody
pursuant to a judgment of a State court shall not be granted with respect to any claim
that was adjudicated on the merits in State court proceedings unless the adjudication of
the claim –
(1)

resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or

(2)

resulted in a decision that was based on an unreasonable application of the
facts in light of the evidence presented in the State court proceedings.

California Penal Code § 987.2(d)
“In a county of the first, second, or third class,2 the court shall first utilize
2

California Government Code § 28022 (1961 amendment) defines a first class county as one with a
population over 4,000,000 people (Los Angeles County). Government Code § 28023 defines a second class

3

the services of a public defender to provide criminal defense services for indigent
defendants. In the event that the public defender is unavailable and the county and the
courts have contracted with one or mor responsible attorneys or with a panel of
attorneys to provide criminal defense services for indigent defendants, the court shall
utilize the services of the county-contracted attorneys prior to assigning any other
private counsel. Nothing in this subdivision shall be construed to require the
appointment of counsel in any case in which the counsel has a conflict of interest. In the
interest of justice, a court may depart from that portion of the procedure requiring
appointment of the county-contracted attorney after making a finding of good cause and
stating the reasons thereof on the record.”
California Government Code § 31000,
“The board of supervisors may contract for special services on behalf of the
following public entities: the county, any county officer or department, or any district or
court in the county. Such contracts shall be with persons specially trained, experienced,
expert and competent to perform the special services. . . . The special services shall
[include]. . . legal . . .services. . . The board may pay from any available funds such
compensation as it deems proper for these special services. . .”

IV.
STATEMENT OF THE CASE

county as one with a population between 1,400,000 to under 4,000,000 people. Government Code § 28024
defines a third class county as one with a population between 1,300,000 to under 1,400,000 people.

4

Staten was arrested in January of 1991 and charged with the murder of his
mother Faye Staten and father Ray Staten in the early morning hours of October 13, 1990
in La Puente, California, a suburb of Los Angeles. Staten was indigent and originally
assigned a public defender. However, the Los Angeles County Public Defender’s Office
declared a conflict of interest and Staten was reassigned to attorney John Tyre, a
member of the Pomona Contract Lawyer’s Association (“PCLA”). That appointment and
Tyre’s subsequent representation of Staten during the guilt phase of his trial are the
subject of this petition for writ of certiorari.
A.

The PCLA Contract

Four of Staten’s claims allege constitutional violations resulting from
appointment of counsel under the terms of a written contract between Los Angeles
County and the Pomona Contract Lawyers Association ("PCLA"). 3 Over the course of
fourteen years of litigation in the California Supreme Court and federal district court the
factual allegation that appointment of counsel was under the PCLA contract was never in
dispute. Although denying the PCLA claims, the district court expressly found that
Staten’s counsel, John Tyre, was appointed to represent Staten pursuant to the contract
(1 App. 145).
When the case reached the Ninth Circuit Court of Appeals, however, the court
quickly disposed of the PCLA claims, holding under Harrington v. Richter, 562 U.S. 86,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011) and the deference required under §2254(d)(2), that
3

The legal theories are due process (Claim 1), equal protection (Claim 2), ineffective assistance of counsel
(Claim 3), and conflict of interest with state interference in counsel's performance (Claim 11).

5

the California Supreme Court could reasonably have concluded that Staten’s allegation
of the "underlying premise" that appointment of counsel was under the PCLA contract
was "unsupported" and that his argument "therefore collapses.” Staten v. Davis, 962
F.3d 487, 500 (9th Cir. 2020) (1 App. 171).4
As is argued more fully below, this determination contravenes this Court’s
decision in Richter because while hypothesizing what arguments and theories could
support the California Supreme Court's summary denial, the Ninth Circuit wholly ignores
firmly established state law as well as rules and procedures employed by California
courts in disposing of habeas petitions. Irrespective of what other bases the California
Supreme Court may arguably have had to summarily deny the PCLA claims, the panel
decision erroneously theorizes that the claims could reasonably have been resolved by a
single factual finding that the California Supreme Court would not and could not have
reached under its controlling process and procedures for determining the existence of a
prima facie case for relief in a petition for habeas corpus.
Staten therefore believes that this case presents an opportunity for an essential
further explication of this Court’s decision in Richter with regard to the proper
application of the §2254(d)(2) exception to state summary denials of habeas claims
without reasoned opinions.

4

In briefing in the circuit court, Respondent maintained as its primary opposition to the PCLA
claims that there was no showing of prejudice. However, for the first time in the case, in a footnote in its
brief, while observing that the record didn't establish "whether [appointment under the PCLA contract] is
true," Respondent asserted that for purposes of the appeal "it can be assumed that [counsel] was appointed
pursuant to the PCLA contract." Other than this, there was no other briefing concerning whether

appointment was under the contract
6

B.

Ineffective Assistance Of Counsel During The Guilt Phase

Fay and Ray Staten, the mother and father of Staten, were murdered in their
home on October 12, 1990. Staten was arrested in January, 1991, then tried, convicted
and sentenced to death for the murder of his parents. The case was entirely
circumstantial – no eye witnesses, no scientific evidence connecting Staten to the crime
scene, no confession and no real motive. As the prosecutor conceded in his opening
statement, he would not be able to prove that Staten was the actual murderer, only that
Staten was somehow “involved” in the double homicide:
1.

The Staten Family

In October 1990, the Staten family was a middle-class African American family
living in their own home in La Puente, California. Staten’s father, Ray Staten, was 44
years old and his mother, Faye, was 43 years old. Ray and Faye Staten had two children,
Staten, age 24, who lived with his mother and father, and his younger brother Lavelle,
age 21, who was mentally retarded and a ward of the state who resided at a state run
home for developmentally disabled individuals in Covina. Staten graduated from high
school, was a member of the school’s football team and his only prior criminal conviction
was for misdemeanor driving under the influence of alcohol.
Staten’s parents owned and worked at a hair salon and beauty supply store in La
Puente named “Najamah’s.” Staten worked part-time for his parents at Najamah’s and
was a member of a musical group called The First Amendment. Staten’s parents owned
their own home. As described by several neighbors and relatives, Staten had a warm

7

and loving relationship with his mother Faye. Several prosecution witnesses described
Staten’s relationship with his father Ray as “strained.”
The Staten’s residence was located in an area of La Puente, California which was
the home turf of a local Hispanic street gang called the “Eastside Dukes.” According to
Deputy Los Angeles County Sheriff David Watkins, the Eastside Dukes were violent,
known to kill people and were antagonistic towards African Americans. Watkins had
personally observed graffiti near the Staten residence claiming “Eastside Dukes kills
Niggers.” Michael Hartman, the Statens’ next door neighbor, testified that the Eastside
Dukes claimed the neighborhood as their territory. Other neighbors testified that gun
shots were fired by the gang almost every night. Still other neighbors described
incidents where they had observed members of the gang drive with guns and threaten
Staten. Staten testified at trial that he had lived at his parent’s residence for thirteen
years. His troubles with the East Side Dukes began while he was attending Nogales High
School. Over the years since high school, Staten had been threatened on numerous
occasions by Eastside Dukes gang members.
2.

The Parents’ Vacation

In late September 1990, Staten’s parents departed on a two week vacation to
Egypt. While his parents were on vacation, Staten was charged with looking after the
family home and business. His parents had left the mother’s car, a Cadillac, at home for
Staten to use for transportation, but the car became inoperable just a few days after
their departure and Staten had to rely on friends and neighbors for transportation while
_________________________
8

his parents were on vacation. Staten went to the family business during his parents’
vacation to collect rent checks from hair stylists working there. While there, he took a
.38 revolver his mother kept at the business and brought it back to the family home.
Staten had several of his friends visit and stay at his home while his parents
traveled. John Nichols, one of Staten’s friends, was present one evening when Staten
emerged from his bedroom with the .38 caliber revolver he had taken from his mother’s
business. Nichols heard Staten say that he heard a noise in the back yard. Staten told
Nichols that “I wish they [Eastside Dukes] would leave my family alone and stop calling
here and harassing me.” Nichols observed Staten go into the back yard with the gun but
Staten returned saying he did not find anyone there. The next day, Staten went outside
to the back yard and discovered the words “ESD” painted in white on the patio. Nichols
went to the Staten residence the next day and also saw the graffiti in the back yard.
Nichols then heard Staten state that the Eastside Dukes were “going to get theirs.”
Faye and Ray Staten returned from their vacation on Thursday, October
11, 1990 at approximately 11:30 p.m.. Instead of immediately going home from the
airport, they decided to spend the night at Faye’s parents’ home in South Central Los
Angeles, which was close to the airport. Faye’s parents, the McKays, lived on West 73rd
Street in Los Angeles, approximately 28 plus miles from the Staten residence in La
Puente. The following evening, the McKays invited friends and family to their residence
to welcome home Faye and Ray and to look at photographs and video of their trip to
Egypt. Staten was invited to attend the gathering, but because his mother’s car was
_________________________
9

inoperable, he had no way to attend the function at his grandparents’ home. The
gathering at the McKay residence broke up sometime between 11:20 -11:25 p.m. and
Staten’s parents got into Ray’s pickup and drove back to their residence in La Puente.
As a subsequent autopsy performed three days later revealed, Ray had a blood alcohol
level of 0.126%.5
According to Bertha and Raphael Sanchez, neighbors who lived two doors away
from the Staten family home, Ray and Faye arrived home the evening of October 12,
1990, at 11:40 p.m. Mrs. Sanchez was doing laundry in her garage with the garage door
open when she saw Ray’s pickup arrive at the residence and pull into the driveway. Mrs.
Sanchez then went back inside her house and she and her husband turned on the
television and watched the television program “Nightline,” which aired beginning at
11:30 p.m.. While watching that program, they heard gunshots coming from the vicinity
of the Staten home. Bertha and Raphael Sanchez both testified that the gunshots took
place during a car commercial while they were watching Nightline. The prosecutor
established that the only car commercial played on Nightline that evening took place at
11:47 p.m.. Thus, the time of the murder of Staten’s parents was established by the
prosecution as being 11:47 p.m. the evening of October 12, 1990.
Staten disputed this assertion and testified that his parents did not get home until

5

In California a person is presumed to be under the influence of alcohol if the blood alcohol level
is above 0.08%.

_________________________
10

shortly after midnight.6 At approximately 12:31 a.m., Staten’s aunt called to ask if her
sister Faye and Staten’s father had made it home safely from the gathering at the McKay
residence. Staten told his aunt that his parents had returned home just a few minutes
earlier. After this phone call, Staten asked his father if he could borrow the pickup to go
get something to eat, as his mother’s Cadillac was still inoperable. Staten drove to a fast
food restaurant to get something to eat, returning home at approximately 1:00 a.m..
When Staten entered the residence, he found both parents had been murdered. Staten
immediately ran to the home of his next door neighbor, Michael Hartman, and told
Hartman what Staten had observed in his parents’ home. Hartman went next door,
confirmed what Staten had told him and immediately thereafter called the police.
When the police arrived, they found both parents dead. Ray had been shot once
in the back of the head and Faye had been stabbed eighteen times with a knife. Inside
the residence, the police found the words “ESD Kills” spray-painted on a mirror in the
living room. No murder weapons were recovered and there was no evidence at the crime
scene linking Staten to the murder of his parents. Staten was taken to the police station,
interviewed and his hands checks for gunshot residue. That test came back negative.
The following morning, blood samples were collected from the Staten residence and

6

The prosecutor’s time line had Staten’s parents leaving Los Angeles between 11:20 and 11:25
p.m. and arriving at their residence at approximately 11:40 p.m. In order to travel the 28 miles from the
gathering in Los Angeles and arrive at their residence in La Puente by 11:40 p.m., Staten’s father would
have had to average 85 miles per hour if he left the gathering at 11:20 p.m., and 113 miles per hour if he left
the gathering at 11:25 p.m. – all while being legally intoxicated.

_________________________
11

compared with Staten’s blood but the results were inconclusive.7 Staten’s palm print was
found on the wall next to the mirror where “ESD Kills” had been spray-painted, but of
course Staten lived in that home and the prosecution’s expert witness could not
determine when the palm print had been made. David Watkins, a Los Angeles County
Deputy Sheriff, testified for the prosecution as a gang expert. He was permitted to
testify that, in his opinion, the graffiti found in the back yard of the Staten residence and
the “ESD Kills” found on the mirror in the living room was not Eastside Dukes graffiti
and that the murders of Staten’s parents was not gang related.
Staten’s relationship with his mother was described by four neighbors, six close
friends, four family members and one of his mother’s co-workers as close, loving and
warm. As to why Staten would suddenly attack both of his parents – one with a gun and
another with a knife – just minutes after they returned home from vacation, the
prosecution argued that Staten’s motive for killing his parents was that Staten was a
contingent beneficiary on life insurance policies taken out by Faye and Ray worth
approximately $300,000. To buttress that assertion, two young friends of Staten were
called as witnesses to establish that Staten had told them, apparently while playing
basketball, that if anything happened to his parents, he would come into a lot of money.
However, both witnesses testified that they did not take Staten seriously and that Staten
7

There was no DNA testimony. There was a stipulation to the effect that two blood samples did
not come from the father, but “could have” come from the mother or Staten. Eight of the samples did not
come from either of Faye or Ray but “could have” come from Staten. Three of the blood samples did not
come from Ray or Staten but “could have” come from Faye. Stated another way, fourteen blood samples
“could have” come from a person other than Staten, his father or his mother. That other person could have
been the actual murderer.

_________________________
12

had been laughing and joking when these statements were made. Staten’s parents were
murdered October 12, 1990 and Staten was arrested on January 10, 1991 and charged
with their murders. Staten never made any claim to the insurance proceeds – the only
claim that was made was by the funeral home to cover costs associated with the funeral.
3.

Evidence Adduced During The State Habeas Investigation

In the state habeas proceeding, the California Supreme Court was presented with
evidence of third party culpability that the jury did not hear. Dr. Armando Morales, a
clinical social worker specializing in the study of Hispanic criminal street gangs,
submitted a declaration in support of Staten (2 App. 320-335). In that declaration, Dr.
Morales, based on his review of large portions of the trial record, came to the conclusion
that “there is a very high probability that the Statens were murdered by the East Side
Dukes” (2 App. 327). This opinion directly rebutted the testimony of the prosecutor’s
gang expert that the East Side Dukes had not killed Staten’s parents. In addition to Dr.
Morales, there were five independent witnesses who observed East Side Dukes animosity
towards the Statens. Robert Osegara, an adult neighbor, and Brian Ellis, an
acquaintance of Deondre, observed gang members for the East Side Dukes drive by the
Staten family residence on October 13, 1990 – the day after the murders. Both individuals
overheard the gang members in the car say “yeah we got them” (2 App. 336-339).
Osegara’s wife Pat Osegara and Quincy Murphy also observed the gang members drive by
the Staten residence the morning after the murders (2 App. 340-343). Keith Taylor, a
friend of Deondre, was standing on the corner of Faxina and Northern Avenues the
_________________________
13

morning after the murders, watching the police and the media. While standing there, he
observed several members of the East Side Dukes drive by in a Chevy Monte Carlos,
smiling and nodding their heads up and down. Taylor overheard the gang members say
“yeah we got them” (2 App. 344-345).
The evidence against Staten was circumstantial. Staten had a good relationship
with his parents. He had no motive to kill the parents he lived with. There was a history
of animus between Staten and the Eastside Dukes. Their graffiti was found in the back
yard and at the scene of the crime inside the Staten residence. Five witnesses known to
trial counsel were prepared to testify and would have testified if called a defense
witnesses. Had all available evidence of his innocence been produced, there is a
reasonable probability that the jury’s verdict would have been different.
V
REASONS FOR GRANTING THE WRIT
This case is deserving of this Court's consideration because as it pertains to the
PCLA Claim, it presents an opportunity for this Court to furnish an important clarification
of a question remaining after Richter regarding the nature of the deference required in
hypothesizing possible state court findings of fact in federal review of summary
dispositions under §2254(d)(2) – namely, whether consideration must be given to a state's
substantive laws, process and procedures for determining the existence of a prima facie
case for relief. As it relates to the ineffective assistance of counsel claim, the California
Supreme Court’s decision that Staten had not been deprived of his right to the effective
_________________________
14

assistance of counsel is objectively unreasonable in light of the Court of Appeals’ opinion
that trial counsel’s performance was deficient and that Staten had been prejudiced as a
result thereof.
A.

The PCLA Claims
1.

PCLA Claims History

Following Staten’s conviction and sentence to death on January 16, 1992, and
automatic appeal to the California Supreme Court, habeas petitions were filed in state
and federal court. The PCLA claims were first alleged in the California Supreme Court in
a habeas petition filed on February 24, 2006 (2 App. 207-288). These alleged the same
claims as those in a federal petition that had been found to be unexhausted. On
December 20, 2006, the California Supreme Court summarily denied the PCLA claims on
the merits for failure to state a prima facie case for relief (1 App. 22-23).8
The PCLA claims allege a number of constitutional infirmities resulting from
attorney John Tyre’s representation under the terms of the PCLA contract, including a
grossly inadequate fee of $991.67, the same as that for a misdemeanor. However, the
central focus is on the assertion that under the terms of the PCLA contract, the
appointment of second counsel in a capital case at state expense was prohibited (2 App.
185-186) – a condition not imposed on non-PCLA attorneys appointed to represent capital
defendants. Under §987(d),9 in all capital cases where counsel was appointed without the

8

9

Procedural bars were also cited but those are not at issue in this petition.
All references to §987 are to the California Penal Code.

_________________________
15

restraints set forth in the PCLA contract, second counsel was available for appointment
at state expense upon application of appointed counsel and an adequate showing of
necessity. In short, if counsel was appointed under the PCLA contract, the County would
not pay the fees for a second attorney, even in a capital case. 10 This, it is alleged, was
the result of unconstitutional interference of the state by virtue of the terms of the PCLA
contract.
Staten argued that the facts alleged a prima facie case of prejudice from
ineffective assistance of counsel and conflict of interest, but also structural error as well
as per se prejudice. However, these claims obviously relied initially on the foundational
factual allegation that “Tyre’s appointment was pursuant to a contract between the
Pomona Contract Lawyer’s Association (PCLA) and Los Angeles County.” (2 App. 255256 ¶70).
Although the California Supreme Court denied these claims for failure to state a
prima facie case for relief, no explanation was furnished in the summary decision.
Nevertheless, that court did not resolve the PCLA claims in a vacuum but rather in
accordance with a well-established statutory, decisional, and rules-based process for
determining whether a habeas claim states a prima facie case deserving of further
review by the issuance of an Order To Show Cause. That process, Staten contends, was

10

This restriction was subsequently eliminated later extensions of the PCLA contract. The two
extended contracts, discussed post, contain significant changes from the original, providing for separate and greatly
increased compensation in capital cases while eliminating capital cases from the provision permitting a defendant
only one lawyer (2 App. 201, 204, ¶ 1-2).

_________________________
16

erroneously ignored by the Court of Appeals in this case in what amounts to its own
unreasonable de novo summary disposition of the PCLA claims.
2. California Law Governing Appointment of Indigent Counsel
In California, appointment of counsel, as required in capital cases under
California Penal Code §987(b), is governed by §987.2. Section 987.2(d) sets forth the
requisite source and priority of appointment in Los Angeles County courts: 11
“[T]he court shall first utilize the services of the public defender. . . In the
event the public defender is unavailable and the county and the courts have
contracted with one or more responsible attorneys or with a panel of
attorneys to provide criminal defense services for indigent defendants, the
court shall utilize the services of the county-contracted attorneys
prior to assigning any other private counsel. . ." §987.2 (d)(emphasis
added).
The law is clear that "courts must comply with section 987.2 when appointing counsel to
represent indigent criminal defendants." People v. Ortiz, 51 Cal.3d 975, 989 & n.5 (1990)
(emphasis added). Section 987.2(d) further provides that a court may depart from the
prescribed order of appointment only in the "interest of justice," and in doing so it "must
make ‘a finding of good cause and stat[e] the reasons therefore on the record.'" People
v. Cole, 33 Cal.4th 1158, 1184 (2004)(quoting Alexander v. Superior Court, 22
Cal.App.4th 901, 910 (1994)).
Absent specific statutory authorization, California courts lack the inherent power
11

The "class" designation in the statute refers to the separation of counties by population; Los Angeles
County, with a population of over 4 million is considered a county of the first class as referred to in §987.2; See Cal.
Gov. Code, § 28022; Williams v. Superior Court, 46 Cal.App.4th 320, 326 n.6 (1996). The order of appointment at
the time of the instant case was governed by §987.2(d) because Los Angeles County did not yet have a second
(alternate) public defender.

_________________________
17

to order the expenditure of public funds to compensate an attorney for representation of
indigent criminal defendants. Arnelle v. City and County of San Francisco, 141
Cal.App.3d 693, 696 (1983), citing Jara v. Municipal Court, 21 Cal.3d 181, 184 (1978).12
Hence, California Government Code §31000, entitled "Contracts for special services,"
provides that a county board of supervisors may contract for direct payment to attorneys
for legal services furnished in "any district or court in the county." Phillips v. Seely, 43
Cal.App.3d 104, 116-117 (1974). These would be the "county-contracted attorneys"
referred to in §987.2(d) as distinguished from "private counsel," who have no contract in
advance of appointment and are not similarly situated to county-contracted attorneys.
Seely, supra.; see, Arnelle v. City and County of San Francisco, supra, 41 Cal.App.3d
at 396.
Pursuant to §987.6, the cost of indigent counsel is primarily the responsibility of
county government, the state only reimbursing up to 10% of those fees. No doubt it was
with this in mind that sometime prior to September 18, 1990, the Los Angeles County
Board of Supervisors directed all twelve of its judicial districts to implement “either
the Alternate Defense Counsel (ADC) or a contract attorney program” so as to require
the appointment under §987.2 of previously contracted attorneys rather than retaining
private counsel to represent indigent defendants in the absence of a public defender (2
App. 180-81) (emphasis added).

12

Statutory authorization for a judge to determine the amount to be paid to appointed counsel out of a
county's general fund is found in §987.2(a) which provides that a court may do so only in the absence of a public
defender or contract-attorneys.

_________________________
18

This gave birth in Los Angeles County Superior Court's East District (Pomona) to
a written Agreement For Defense Services between Los Angeles County and the Pomona
Contract Lawyer's Association ("PCLA Contract") which was formally adopted by the
County on October 2, 1990 (2 App.182-199). Covering the period November 1, 1990 to
October 31, 1991, the contract provided that in the absence of the public defender,
pursuant to §987.2, one of the PCLA's member attorneys would be appointed to
represent in all criminal cases in the Pomona courts, "including capital cases." The total
contract amount was $495,833 for an estimated 500 cases, and $991.67 per case should
the caseload exceed 500 cases (2 App. 185 ¶ 3a & 3b; p. 187, ¶ 4ciii). Consistent with
§987.2(d), the contract provides that in any case in which such representation did not
occur, the court would make "a written finding that a conflict of interest or other legal
disability precludes any of [PCLA's] members from being appointed. . ." (2 App. 183-184
¶ 1).
As for membership in the PCLA, the names of its members are not identified in the
text of the contract, but it states that "No attorney may provide services pursuant to this
Agreement or any extension thereof unless and until he has signed this Agreement . . ."
(2 App. 188 ¶ 7). The copy of the contract that Staten was able to file in support of his
state habeas petition does not include a signature page. However, copies of extensions
of the contract for the following two years include at the end a page entitled "Contractor's
Members." Each extension contains the signature of the same nine members, including
Staten's attorney, John Tyre (2 App. 201-203, 204-206). Tyre signed the first extension
_________________________
19

on October 29, 1991 (2 App. 203), which was eight days after the actual commencement of
Staten’s trial following months of pre-trial preparation. Nothing in the record reflects a
modification of the basis of his appointment or compensation for his services from that of
his original appointment on April 9, 1991, during the fourth month after the inception of
the contract (2 App. 200). The official minute order recording Tyre's appointment states
that "Due to conflicts of interest, Public Defender relieved" and "pursuant to section 987.2
Penal Code (Government Code §31000) Alternate Defense Counsel J. Tyre is appointed"
(2 App. 200). 13 Simply put, Tyre could not have been appointed to represent Staten
unless he was in fact a member of the PCLA.
3.

California Process and Procedures In Habeas

At the outset, it must be observed that in exercising habeas jurisdiction,
California courts "must" abide by statutory procedures set forth in the Penal Code §§
1483 through 1508. In re Cook, 7 Cal.5th 439, 457 (2019). See Adoption of Alexander S.,
44 Cal.3d 857, 865 (1988)(reversing grant of habeas because the lower court "ignored
explicit habeas corpus procedures").
Staten asserts that these rules governing the habeas process, discussed more
fully below, including most particularly the assumption of the truth of factual allegations
and the explicit requirement that a petitioner submit as support “reasonably available”

13

As described above, the judicial districts were directed by the County to utilize either an Alternate
Defense Counsel or contract attorney program. Although this form refers to an “Alternate Defense Counsel,” clearly
Pomona had opted for the contract-attorney option, namely the PCLA contract. In either event, appointment of
private counsel was not permitted in this case without a showing of good cause and statement of reasons in the
record.

_________________________
20

documentation, are in anticipation of the severe limitations to a petitioner's ability to
take discovery in collateral proceedings prior to the issuance of an Order To Show Cause
(“OSC”). Absent the issuance of an OSC, California petitioners lack the power to issue
subpoenas and compel witness testimony. Durdines v. Super. Ct., 76 Cal. App. 4th 247,
252, 254 (1999) ( Penal Code §1484 authorizes compulsory process only after a writ has
issued and a return has been filed). People v. Gonzalez, 51 Cal.3d 1179 (1990), cited in
Durdines, explains that once a criminal proceeding is final in the trial court, nothing
remains pending in the trial court to which discovery may attach. Id. at 1257. Nor do
habeas corpus proceedings in appellate courts provide an appropriate discovery vehicle
prior to the issuance of an OSC or writ:
“A habeas corpus petition must be verified, and must state a “prima facie
case” for relief. That is, it must set forth specific facts which, if true, would
require issuance of the writ. Any petition that does not meet these
standards must be summarily denied, and it creates no cause or
proceeding which would confer discovery jurisdiction.” Id. at 1258.
Accord, In re Steele, 32 Cal.4th 682, 690 (2004)(death penalty habeas petitioner not
entitled to court-ordered discovery “unless and until this court has issued an order to
show cause and thus has determined that the petition has stated a prima facie case for
relief”).14
As for the habeas process itself, it is axiomatic in California that for a habeas
claim to survive summary denial, it must on its face state a prima facie case for relief.
14

Steele is concerned with a recently passed statute, Penal Code §1054.9, permitting,
post-conviction, "limited discovery" of some materials in the possession of the prosecution and law
enforcement authorities to which the defendant would have been entitled at the time of trial.

_________________________
21

People v. Romero, 8 Cal. 4th 728, 737 (1994); See In re Harris, 5 Cal.4th 813, 827
(1993)("one seeking relief on habeas corpus need only file a petition for the writ alleging
facts which, if true, would entitle the petitioner to relief"). Thus, a petitioner must "state
fully and with particularity the facts on which relief is sought," In re Clark, 5 Cal.4th 750,
769, fn. 9 (1993); People v. Duvall, 9 Cal.4th 464, 474 (1995), and must also provide
"reasonably available" documentary support for his allegations. In re Cook, supra, 7
Cal.5th at 457, citing Penal Code §§1474-1475 and People v. Duvall, supra, at 475 (1995).
Critical to the question presented here is that in determining whether a prima
facie showing has been made, a California court "takes petitioner's factual allegations as
true and makes a preliminary assessment regarding whether the petitioner would be
entitled to relief if his or her factual allegations were proved. If so, the court must issue
an order to show cause." Cal. Rules of Court, rule 4.551(c)(1) (emphasis added); People
v. Duvall, 9 Cal. at 474-75; In Re Clark, 5 Cal.4th at p. 769, fn. 9, citing In re Lawler, 23
Cal.3d 190, 194 (1979).
As expressed in Maas v. Superior Court, 1 Cal. 5th 962, 977-78 (2016),
"When a judge summarily denies a habeas corpus petition for failure to
state a prima facie case for relief, even in the absence of an informal
response by the People, the judge has resolved a contested issue of law
against the petitioner, that is, the judge has decided that the factual
allegations set forth in the petition, even assuming they are true, do not
entitle the petitioner to relief."
The Maas reference to an "informal response" is to a pleading that a court may request
from a respondent under Rule 60, California Rules of Court, to assist in making the initial
determination whether the petition states a prima facie case. The full function of the
_________________________
22

informal response is explained in People v. Romero, supra, 8 Cal.4th at 742:
“The informal response contemplated by rule 60 performs a screening
function. (citation omitted). Through the informal response, the custodian
or real party in interest may demonstrate, by citation of legal authority and
by submission of factual materials, that the claims asserted in the habeas
corpus petition lack merit and that the court therefore may reject them
summarily, without requiring formal pleadings (the return and traverse) or
conducting an evidentiary hearing. If the petitioner successfully
controverts the factual materials submitted with the informal response, or
if for any other reason the informal response does not persuade the court
that the petition's claims are lacking in merit, then the court must proceed
to the next stage by issuing an order to show cause or the now rarely used
writ of habeas corpus. Deficiencies in the informal response do not provide
a justification for shortcutting this procedural step.”
It has been described more colloquially in Durdines, supra, 76 Cal.App. 4th at 253,
as a mechanism used to "encourage the [Respondent] to look into whether or not factual
assertions of the petitioner are accurate," and that "typically . . . the [Respondent's]
informal response serves to fatally undermine the petition by providing the court with
irrefutable evidence that the petition's allegations are factually unfounded. In such a
case, the appellate court can speedily terminate proceedings, after the minimum
expenditure of time and expense." Id, at 253.
That clearly cannot be said to have occurred in the present case with regard to
the allegation that Tyre was appointed under the PCLA contract. Respondent's Informal
Response to Staten’s third habeas petition (2 App. 289-312) wholly failed to deny, rebut,
refute, or challenge in any way the truth or accuracy of the assertion that Tyre's
appointment was in fact under the PCLA contract. Rather, in addition to concentrating
on procedural bars, Respondent presented a detailed argument that Staten failed to state
_________________________
23

a prima facie case because "regardless of the terms of the PCLA contract," Tyre's
representation did not result in the unconstitutional denial of a second counsel, conflict
of interest, constitutionally inadequate representation, denial of due process or equal
protection, or prejudice to Staten” (2 App. 304-305). Respondent asserted that the
$991.67 fee for a capital case under the contract was nothing more than an allegation
that Staten's attorney "freely and voluntarily entered into a contract whereby he
consented to represent criminal defendants for a certain, agreed upon fee, albeit a fee
that petitioner considers grossly inadequate" (2 App., p. 308). Missing from this Informal
Response was even a hint that Respondent challenged the underlying fact Tyre was
appointed under the PCLA contract. Thus, the Informal Response opened no discussion
or debate and invited no need or opportunity for an Informal Reply from Staten
addressing the truth of this essential allegation. As discussed, ante, this is one of the
very purposes for the Informal Response.15
4.

Proceedings in the District Court

The same basic opposition to the PCLA claims was maintained in federal district
court. Over some fourteen years of proceedings, Respondent opposed a motion for
evidentiary hearing, brought several motions to dismiss and supported an Order To

15

“ If the petitioner successfully controverts the factual materials submitted with the informal
response, or if for any other reason the informal response does not persuade the court that the petition's
claims are lacking in merit,” then the court proceeds to the next stage, an order to show cause. People v. Romero,
supra, 8 Cal.4th at 742; “Typically . . . the [Respondent's] informal response serves to fatally undermine the petition
by providing the court with irrefutable evidence that the petition's allegations are factually unfounded.” Durdines,
supra, 76 Cal.App. 4th at 253.

_________________________
24

Show Cause why summary judgement shouldn't be entered on grounds of the relitigation
bar of §2254(d). Respondent dismissed the PCLA claims as making "much ado regarding
the contract" with "allegations [that] amounted to nothing more than a complaint that
[Staten's] lawyer was unpaid" (Motion to Dismiss, January 19, 2012, pp. 115-116 [Doc
154]), that "[n]o matter how ‘suspicious' or ‘Faustian' Petitioner claims the PCLA
contract to be, Staten's defense was not harmed by it” (Reply To Petitioner’s Response
To Order To Show Cause Re Summary Judgment, July 7, 2014, p. 8 [Doc 209]), and that
"[n]o clearly established law dictates that an unconstitutional conflict of interest is
created by a fee contract between a county and members of a state's Bar who agree to
function as an alternate public defender" (Id. at p. 9)(emphasis added). But
Respondent never took the position in the district court that Tyre had not been appointed
to represent Staten pursuant to the PCLA contract.
Ultimately, as required by Richter, the federal habeas proceedings focused on
§2254(d). Respondent claimed that Section 2254(d)(2) was wholly inapplicable to the
analysis of the state court's summary denial. Respondent asserted that California's
standards for determining a prima facie case assumed that all facts alleged in support of
the habeas claims were true and that all declarations and documentary evidence Staten
submitted were credible. Respondent claimed that the summary denial of the state
petition was not because of any lack of convincing evidence, but rather because no
factual determinations of any kind were ever made by the state court. Consequently, as
a result of the summary disposition, Respondent took the position that there had been no
_________________________
25

determination of the facts within the meaning of §2254(d)(2), and the California Supreme
Court’s summary denial was not based on a determination of the validity of any facts.
(Reply to Petitioner’s Response To Order To Show Cause, July 7, 2014, pp. 3, 23 [Doc
209]). In short, "The state supreme court's decision was therefore a legal ruling, not a
factual finding, and must be reviewed under [only] §2254(d)(1)” (Id., at p. 21). The
district court, although “troubled by the terms of the PCLA contract,” indeed expressing
“suspicions of” and “disdain for” the contract (1 App. 138, 151), in its final lengthy
analyses of the PCLA claims held that the state court's denial was reasonable under
§2254(d). Just as in the state court, the district court found that trial counsel Tyre’s
appointment was under the PCLA contract (1 App. 145).
5.

Appeal in the Ninth Circuit Court of Appeals

In its opinion affirming the district court the Ninth Circuit correctly cites Richter
for the general proposition that when there has been a summary denial on the merits in
the state court, Staten retains the burden to show that “there was no reasonable basis
for the state court to deny relief.”

However, with respect to the PCLA claims, the

court’s judgment is founded entirely on a single determination of fact theoretically made
by the California Supreme Court – a conclusion reached by the Ninth Circuit without
regard to the state court’s established rules and procedures for dealing with factual
issues when deciding whether a prima facie case has been alleged in the state petition.
The Court of Appeals decision states that there is “no evidence in the record”
that Staten’s trial counsel was appointed to represent Staten pursuant to the PCLA
_________________________
26

contract, “nor [any] evidence” that Tyre was a member of the PCLA “at the time the
initial contract was signed or was a signatory to the original contract.”16 Accordingly,
the decision declares, Staten’s entire argument “collapses” because the California
Supreme Court could have reasonably concluded that Tyre’s appointment was not under
the PCLA contract. Staten v. Davis, 962 F.3d at 500 (1 App. 171).
Aside from the fact that Staten believes this grossly misstates the state court
record, notably absent is any reference to or apparent consideration of the applicable
substantive law pertaining to appointment of indigent counsel in California, nor of the
well-established process and procedures under which the California Supreme Court
determines the existence of a prima facie case for relief. Staten contends this is not
consistent with the deference contemplated by this Court in Richter under §2254(d)(2),
deference not only to the ultimate determination of the state court, but also to the
process and applicable state law under which the state court arrives at its
determination. Notably, §2254(d)(2) finds no reference anywhere in the panel’s decision.
To summarize, the California Supreme Court’s process in deciding whether
appointment in this case was under the PCLA contract would have mandated
consideration of at least the following:
1. The allegation was assumed to be true;

16

It must be observed that whether Tyre was a signatory to the “original contract” or when the “initial
contract was signed” is immaterial to whether he was a member of the PCLA when he was appointed, as was clearly
required by law. Nothing whatever in the contract provides that no one can be appointed under it unless they are
signatory to the document when it was first effectuated.

_________________________
27

2. Respondent failed to refute or at least deny this important underlying
allegation in its Informal Response as would be expected if there had been any question
as to its truth;
3. Applicable state law required Tyre’s membership in the PCLA in order to be
appointed under §987.2(d) absent a statement in the record of good cause for appointing
private counsel. No such statement is to be found in the record of this case;
4. The record shows that Tyre was appointed pursuant to §987.2 and Gov. Code
§31000 as an “alternate defense counsel” and the only alternate defense counsel
program in place at the time was the PCLA contract (2 App. 200);
5. Even though the contract members page is missing from the copy
of the initial PLCA contract (2 App. 182-199), Tyre’s signature as a member of the PCLA
is found on the contract members page of the two PCLA contract extensions, including
one signed while Tyre was in the middle of Staten’s trial (2 App. 203, 206); and
6. Nothing in the record, including the clerk’s transcript, reflects an agreement
on the amount of or basis for payment of fees (flat rate or hourly) other than those under
the PCLA contract; nor is there any record in the clerk’s transcript, sealed or otherwise,
showing application for or approval of payment for Tyre’s fees.
Although the Court of Appeal’s decision searches vainly for a valid basis in the
record to support a determination that the California Supreme Court could reasonably
have found there was no appointment under the PCLA contract, what has actually been
undertaken is essentially a de novo resolution of a claim posing as a finding of fact that
_________________________
28

could have been made by the California Supreme Court. Staten contends that under
Richter, whether a federal district court’s analysis affirms or rejects a state court’s
summary denial of a claim as failing to state a prima facie case, theoretical findings of
fact under 2254(d)(2) may not be posited in disregard of the state’s established process
and procedures for making such findings.
6.

A Bridge Too Far

A federal court’s review under §2254(d) “focuses on what a state court knew and
did,” Cullen v. Pinholster, 563 U.S. 170, 182. And as this Court also observed in Woods
v. Donald, 575 U.S. 312, 316, 135 S.Ct. 1372, 1376, 191 L.Ed.2d 464 (2015), “AEDPA's
requirements reflect a presumption that state courts know and follow the law” (quoting
Woodford v. Visciotti, 537 U.S. 19, 24, 123 S.Ct. 357, 154 L.Ed.2d 279 (2002)(per
curiam)). That presumably includes the state’s own substantive laws as well as process
and procedures for assessing habeas claims.
States such as California have established a process and procedures such as
those detailed above to govern consideration of habeas petitions for purpose of
determining whether a prima facie case for relief has been made sufficiently to avoid
summary denial. Petitioners as well as respondents are guided by these as furnishing
requisite allegations, evidentiary support, and pleadings, such as California's Informal
Response, necessary to assist in the court's assessment of a claim at this initial stage of
habeas proceedings. Staten contends that this process governing the nature of initial
review is also intended to give recognition to strict limitations on available formal
_________________________
29

discovery until and unless a claim is found to state a prima facie case for relief. Unlike
pre – AEDPA federal habeas proceedings, state petitioners do not have the ability to
compel testimony or subpoena documents; hence the requirement that a petition provide
only “reasonably available” documentary support for a claim.
The question presented here does not involve conclusions of law or mixed
questions of law and fact in determining whether §2254(d)(1) bars federal habeas relief.
The issue here concerns a purely factual allegation that Staten’s counsel was appointed
pursuant to his membership in the PCLA county contract-attorney program. The Court
of Appeals’s decision in this case represents de novo fact finding, not a review of
whether the state court’s denial of a claim was reasonable. Whether such a de novo fact
analysis, ignoring the state court’s fact finding process and procedures, is for purpose of
upholding or reversing a state court’s judgment, it is, Staten respectfully submits, an
erroneous precedent in this capital case that deserves the attention of this Court. The
interpretation of §2254(d)(2) and Richter utilized by the Court of Appeals here as
authorizing a purported hypothetical justification for the California Supreme Court's
denial of the PCLA claims, a disqualification of a claim at the starting gate as it were,
whatever the actual reason or reasons may have been, is a bridge too far, one not
contemplated by the statute or authorized by this Court's construction of it. Although
addressing more complex issues was thereby avoided, “even in the context of federal
habeas, deference does not imply abandonment or abdication of judicial review.”
Brumfield v. Cain, 576 U.S. 305, 135 S. Ct. 2269, 2277, 192 L.Ed.2d 356 (2015) (quoting
_________________________
30

Miller-El v. Cockrell, 537 U.S. 322, 340, 123 S.Ct. 1029, 154 L.Ed.2d 931 (2003).
“The questions that remain in Harrington’s wake – questions regarding not just
whether, but also how AEDPA deference should apply to summary dispositions – await
answers.” Seligman, Harrington’s Wake: Unanswered Questions on AEDPA’s
Application To Summary Dispositions, 64 Stan. L. Rev. 469, 497 (2012). Staten
respectfully urges that the question presented here is among them.
B.

Ineffective Assistance Of Counsel Claim

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984)
established the two prong test for ineffective assistance of counsel: (1) “that counsel’s
representation fell below an objective standard of reasonableness”; and (2) that there is
a “reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id., at 688, 694.
1.

Deficient Performance

Both the majority and dissenting opinions in the Court of Appeals found that the
failure of trial counsel John Tyre to present the testimony of the five witnesses who
heard members of the Eastside Dukes claim responsibility for the murders of Staten’s
parents was deficient performance as defined by Strickland. Staten, 962 F.3d at495,
501. As noted ante, Staten’s defense was predicated on the claim that he did not murder
his parents – they were instead murdered by members of the Eastside Dukes street gang.
Staten’s neighbors, the vice-principal of his high school and the Los Angeles County
Sheriff’s Office all offered testimony that Staten lived in an area of La Puente which was
_________________________
31

claimed by the Eastside Dukes as their turf, that the Eastside Dukes did not like African
Americans, and that Eastside Dukes had previously threatened Staten.
In the state habeas proceeding, the California Supreme Court was presented with
the following evidence that could have been, but was not presented by trial counsel at
Staten’s trial: Five witnesses who were neighbors of Staten and his parents testified
that the morning after the murders, they saw and heard members of the Eastside Dukes
drive by the crime scene and claim “yeah we got them.” In addition, as discussed post,
the evidence presented in the state habeas proceeding included the testimony of a gang
expert offered to rebut the testimony received at trial by a Los Angeles Sheriff’s
Department deputy, who testified as an expert witness and claimed that in his opinion
Staten’s parents were not murdered by the Eastside Dukes. As the majority decision
states “We conclude that Tyre rendered deficient performance by failing to present
testimony that ESD members appeared to claim credit for the murders. It was
objectively unreasonable for the California Supreme Court to conclude otherwise.”
Staten, 962 F.3d at 495.
2.

Prejudice

With respect to the prejudice prong, the majority opinion stated that “Claim 7 (the
IAC claim) fails because fairminded jurists could disagree as to whether the testimony of
the five witnesses regarding ESD members’ boasting was reasonably likely to have
changed the outcome of Petitioner’s trial,” citing Harrington v. Richter, 562 U.S. 86,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011). The Richter decision dealt with the provisions of
_________________________
32

the relitigation bar in Title 28 U.S.C. § 2254(d). Federal courts may not grant a federal
writ of habeas corpus with respect to any claim adjudicated on the merits in State court
proceedings unless under (d)(1) the state court decision “resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or (d)(2) the state court’s
decision “resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d).
In the Richter decision, Richter was charged with the murder, assault and
robbery. Richter was convicted of these crimes and subsequently petitioned the
California Supreme Court for a writ of habeas corpus based on his claim of ineffective
assistance of counsel at trial because of counsel’s failure to present expert testimony as
to blood analysis. The California Supreme Court issued a one sentence summary denial.
Richter then filed a petition for writ of habeas corpus. That petition was denied by the
district court, but subsequently granted in an en banc decision by the Ninth Circuit Court
of Appeals. Richter v. Hickman, 578 F.3d 944 (9th Cir. 2009).
This Court reversed that decision. In so doing, this Court stated that “The pivotal
question is whether the state court’s application of the Strickland standard was
unreasonable . . . For purposes of § 2254(d)(1), ‘an unreasonable application of federal
law is different from an incorrect application of federal law . . . A state court’s
determination that a claim lacks merit precluded federal habeas relief so long as
_________________________
33

‘fairminded jurists could disagree’ on the correctness of the state court’s decision.”
(citing Yarborough v. Alvardo, 541 U.S. 652, 664, 124 S.Ct. 2140, 158 L.Ed.2d 938 (2004)).
In explaining this standard, this Court stated “As a condition of obtaining habeas corpus
from a federal court, a state prisoner must show that the state court’s ruling on a claim
being presented in federal court was so lacking in justification that there was an error
well understood and comprehended in existing law beyond any possibility for fairminded
disagreement. Harrington v. Richter, supra at 103. The test under Richter is, for the
most part, unworkable. The (d)(1) and (d)(2) exceptions to §2254(d) are based on the
terms “unreasonable application” and “unreasonable determination.” But under
Richter, appellate judges can’t make that call if they can theorize that some other
“fairminded” judge somewhere out in the legal community who might disagree with
them. That is always a theoretical possibility. Hence, the (d)(1) and (d)(2) exceptions
have no meaning.
The dissenting opinion in the Court of Appeals concluded that Staten had met his
burden demonstrating the California Supreme Court’s determination was unreasonable.
“The case against Staten was based almost entirely on circumstantial
evidence. There were not witnesses to the murders; no murder weapon
was ever found; blood samples from the crime scene were inconclusive.
The evidence Staten introduced in his state habeas filing, if credited, was
direct and compelling. Given that contrast, even under the deference to the
state courts required under § 2254(d) of the Antiterrorism and Effectiv
Death Penalty Acto of 1966 (“AEDPA”), the conclusion of the jury would not
likely have been swayed had five witnesses testified to the ESD gang’s
bravado is not minimally persuasive.” Id., at 502
The Richter decision involved the (d)(1) exception of § 2254(d), which requires
_________________________
34

deference to the state court decision in its application of Strickland. Here, the question
is not the (d)(1) exception but rather the (d)(2) exception, which requires deference to
the state court decision in light of the evidence presented in the state court proceeding.
The evidence before the state court adduced from the trial with respect to Staten’s
murder of his parents is as follows:
•

Staten was a 24 year old African American male who lived at home with his
parents. He had no prior criminal record (save a misdemeanor DUI
conviction).

•

Staten’s relationship with his mother was described by several witnesses
as a loving and caring relationship.

•

The Staten family residence was located in a neighborhood inhabited by a
violent Hispanic street gang, the Eastside Dukes, who harbored a deep
dislike for African Americans.

•

The Eastside Dukes had prior to the murders threatened Staten.

•

Staten had no motive or reason to murder his parents. Staten was under
no financial pressure, living at home with his parents.

•

The prosecution theory was that Staten’s parents were murdered at 11:47
p.m. on October 12, 1990, based on the testimony of Bertha and Raphael
Sanchez, neighbors of the Statens, who stated they saw Staten’s parents
arrive home at around 11:40 p.m. Fay Staten’s two sisters testified that she
and her husband Ray departed Fay’s parents home following a family

_________________________
35

gathering on October 12, 1990. The distance between the two locations is
approximately 28 miles. To arrive at the Staten residence at 11:40 p.m.
would have required Ray Staten to average at least 85 miles per hour while
driving with a blood alcohol content of 0.16% .
•

Staten did not murder his parents to obtain $300,000 in life insurance
proceeds. After his parents were murdered on October 13, 1990, no claim
was ever made by Staten for the proceeds of the life insurance policies.

•

Staten told two friends that he would inherit a lot of money if his parents
died. Both friends said this conversation was made while Staten was
joking around with them.

•

One of Staten’s friends cooperated with the police and approached Staten
after the murders while wearing a wire. While engaged in conversation
with Staten, this friend attempted to elicit from Staten that Staten had been
involved in the murders. On five separate occasions during this
conversation, Staten advised his friend that “I didn’t do it.”

•

There was no evidence linking Staten to the murders. No murder weapon
was found and the blood analysis at the murder scene was inconclusive.
Staten did not have gunshot residue on his hands when tested shortly after
the murders.

•

The evidence suggested that someone other than Staten was responsible
for the murders. Staten’s father was shot in the head with a hand gun. His

_________________________
36

mother was murdered at the same time by someone who stabbed her 18
times with a knife. This suggests that there was more than one person
involved in the murders.
•

Eastside Dukes gang graffiti was found inside the Staten residence and in
the back yard of the residence.

The evidence before the state court which was obtained during the state habeas
proceedings was as follows:
•

The declaration of Robert Osegara, a neighbor of Staten, who stated that
the Eastside Dukes hated African Americans. The morning after the
murders Osegara was standing outside his residence near the Staten
residence when a car load of Eastside Dukes gang members drove by
saying “yeah, we got them.”

•

The declaration of Brian Ellis, who was a friend and neighbor of Staten.
Ellis stated that he knew Staten and his parents for approximately ten
years before the murders. The Eastside Dukes were a local Hispanic street
gang that hated African Americans. Ellis was standing outside near the
Staten residence with Robert Osegara when Eastside Dukes gang members
drove by the morning after the murders and stated “yeah we got them.”

•

The declaration of Quincy Murphy, a close friend of Staten who grew up in
the same neighborhood. Murphy knew the Eastside Dukes hated African
Americans and knew that Staten had problems with that gang. Murphy

_________________________
37

was also present outside the Staten residence the morning after the
murders and was told by Robert Osegara and Brian Ellis that gang
members had driven by the Staten residence and claimed “yeah we got
them.” While standing outside, Murphy observed several cars drive by
filled with gang members who gave Murphy hard stares and flashed gang
signs.
•

The declaration of Keith Taylor, who stated that he had know Staten and
his parents for around ten years. Taylor was present when the gang
members drove by the morning after the murders and also heard them
state “yeah we got them.”

•

The declaration of Pat Oseguera, the wife of Robert Oseguera. She knew
Staten’s parents and knew Staten was extremely close to his mother. She
was also present when gang members drove by the following morning, but
was unable to hear what they were saying.

•

The declaration of Dr. Armando Morales. Dr. Morales has a doctorate in
social work and was a member of the faculty at U.C.L.A. for over 30 years.
He has worked with and studied Hispanic street gangs in Los Angeles for
many years. He is also a former Los Angeles County probation officer. He
has consulted with Eastside Dukes gang members on parole. The Eastside
Dukes are a violent street gang well known for hating and killing African
Americans. Dr. Morales reviewed that evidence from Staten’s trial and

_________________________
38

formed the opinion that “there is a very high probability that the Statens
were murdered by the Eastside Dukes.”
The majority of the panel in the Court of Appeals stated as follows:
“If we reviewed only for prejudice under Strickland, Tyre’s failure to
introduce the witness testimony might be enough to ‘undermine [our]
confidence in the outcome.’ Strickland, 466 U.S. at 694, 104 S.Ct. 2052.
But when § 2254(d) applies, that is not the question. Richter, 562, U.S. at
105, 131 S.Ct. 770. Instead, the question is whether the state court
reasonably could have concluded that the evidence of prejudice fell short
of Strickland’s deferential standard. Id, 111-12, 131 S.Ct. 770. Here,
there were reasonable grounds for the California Supreme Court to
conclude that the omitted testimony would not have altered the outcome.”
Staten v. Davis, supra at 500.
The majority concluded that the evidence of third party culpability was not
persuasive under the deferential standard required by Richter. The dissent reached the
exact opposite conclusion. With all due respect, if one juxtaposes the trial testimony
with the testimony of five witnesses who heard the Eastside Dukes claim responsibility
for the murders, and if one juxtaposes the testimony of the gang expert offered by the
prosecution at trial with the testimony of Dr. Morales, it appears to be patently
unreasonable for the California Supreme Court to reach the decision they did in light of
the evidence before it. Staten submits fairminded jurists would agree with the
dissenting opinion – “I would hold that ‘[w]ith all due respect to our state colleagues, the
state court’s application of Strickland was objectively unreasonable.’” (citation omitted)

_________________________
39

VI
CONCLUSION
For the reasons expressed above, Staten respectfully requests that a writ of
certiorari issue to review the decision of the Ninth Circuit Court of Appeals.

Dated: October 27, 2020

/s/ Jerry L. Newton
/s/ Norman D. James
Attorneys for Petitioner
DEONDRE ARTHUR STATEN

_________________________
40

